}

No.

In tPje

Supreme Court of tlje Unite!) States!
HIRSH SINGH, PRO SE„
Petitioner,

HONORABLE PHILIP D. MURPHY, IN HIS OFFICIAL CAPACITY
AS GOVERNOR OF NEW JERSEY, HONORABLE TAHESHA WAY,
IN HER OFFICIAL CAPACITY AS NEW JERSEY SECRETARY OF
STATE, ET AL., .
Respondents.

<<•

On Petition For Writ Of Certiorari
To The Supreme Court Of New Jersey

PETITION FOR A WRIT OF CERTIORARI

filed
OCT 2 9 2020
SUPREMF^PTil

L ERK

u.s.

!;

i

QUESTIONS PRESENTED
Does the New Jersey Governor’s Executive Order taking
over the powers of the state legislature to make election
related laws and the primary election conducted according to
this Executive Order violate the Due Process Clause and
Elections Clause (Article 1, Section 4) of the United States
Constitution?
i.

ii.
Does the mail-in ballot system for the manner of voting
created through an Executive Order of the Governor of New
Jersey (and which is separate from the previously existing
absentee ballot system] violate federal laws such as the
Freedom of the Information Act when the newly created mailin ballot system is not subject to federal laws that govern the
absentee ballot system?

• v.

ii

PARTIES TO THE PROCEEDING

Petitioner is Hirsh Singh, a candidate who ran in the
primary election of 2020 to nominate the Republican Party
candidate for the United States Senator representing New
Jersey, the election for which will be conducted on November
3, 2020. Respondents are Philip D. Murphy in his official
capacity as Governor of New Jersey, Tahesha Way in her
official capacity as New Jersey Secretary of State, each of the
County clerks of the twenty one counties of New Jersey, the
twenty one County Boards of Elections, and the twenty one
County Boards of Canvassers.

iii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED.....................................
PARTIES TO THE PROCEEDING..........................
TABLE OF CONTENTS............. ........... ................
TABLE OF AUTHORITIES....................................
PETITION FOR A WRIT OF CERTIORARI............
OPINIONS BELOW...............................................
JURISDICTION.................. ...... ..............................
CONSTITUTIONAL AND FEDERAL PROVISIONS
INVOLVED...................... ....................... ...............
STATEMENT OF THE CASE.................................
I. EXECUTIVE ORDER 144 OF THE NEW JERSEY
GOVERNOR/THE PRIMARY ELECTION BASED ON
IT, AND THE INCLUSION OF NOMINEES FROM THE
PRIMARY ELECTION ON THE BALLOT FOR THE
GENERAL ELECTION VIOLATE THE ELECTIONS
CLAUSE OF THE UNITED STATES
CONSTITUTION..............
....... ..............................
a. Provisions in the United States Constitution and
the related provisions in New Jersey's
Constitution....
...............................................
b. Executive Order 144, which modified several
election related laws related to the time and
manner of holding elections, and which
transferred the powers of the NJ Legislature to
the Secretary of State, and which replaced laws
passed by the legislature with guidelines
created by the Centers for Disease Control and
Prevention and other federal and state
government entities, is in violation of the
Elections Clause of the United States
Constitution...... ................... ...............................
c. New Jersey’s Constitution provides the proper
manner for the Governor to act whenever
public interest shall require such action but the
Governor chose to bypass such a method

i
ii
iii

Iv
1
1
1
2
3

5

5

6

d.

e.

f.

g.

h.

eventually leading to the violation of Article 1
Section 4 of the United States Constitution........
New Jersey's courts erred in claiming that the
emergency powers granted the power to the
Governor to take over the functions of the
legislature and change election laws; in reality,
the only emergency powers granted to the
Governor are those which are already part of
the Executive branch; further, even if they
granted him such powers, it would be
unconstitutional...............................................
Supreme Court Precedent (Arizona State
Legislature v. Arizona. Independent
Redistricting Commission) supports case for
declaring the Governor's actions
unconstitutional and ruling in favor of the
Petitioner.................................................. .........
Recent Supreme Court Ruling in Democratic
National Committee etal. v. Wisconsin State
Legislature, et al. supports Petitioner’s position
to rule Executive Order 144 unconstitutional......
New Jersey Appellate Court erred in focusing on
the time of the election which was never
challenged and in claiming that Petitioner could
have filed the lawsuit prior to injury having
occurred.................. ..................... ...................
New Jersey judiciary has a history of voiding an
election after the election date and could have
done so in this case....... ................. ..................

II.EXECUTIVE ORDER 144 OF THE NEW JERSEY
GOVERNOR, THE PRIMARY ELECTION BASED ON
IT, AND THE INCLUSION OF NOMINEES FROM THE
PRIMARY ELECTION ON THE BALLOT FOR THE
GENERAL ELECTION VIOLATE THE ELECTIONS
CLAUSE OF THE UNITED STATES CONSTITUTION...
III.THE MAIL-IN BALLOT SYSTEM VIOLATES THE
FREEDOM OF INFORMATION ACT AS IT APPLIES
TO THE POSTAL SERVICE WHICH IS A
COMPONENT IN WHAT SHOULD BE A

7

8

10

11

11
14
15

TRANSPARENT GOVERNMENT PROCESS, THE
NEW JERSEY COURT ERRED BY CLAIMING LACK
OF JURISDICTION AND IN IGNORING THE STATE’S
ROLE IN USING THE USPS........... ............. .............
REASONS TO GRANT THE PETITION
CONCLUSION...:................ ..... .............

16
20

21

APPENDIX
Order Denying Reversal of Appellate Division Opinion, in
the New Jersey Supreme Court [October 27, 2020).....
APP.l
Opinion, in New Jersey Superior Court, Appellate
Division (October 21, 2020)..................................

APP 2

Order Transferring, Complaint(s)/Petition(s) to the
Superior Court, Appellate Division.(September 30,2020). APP 3
Plaintiffs' Motion for Summary Judgement to the
Superior Court, Appellate Division (October 13, 2020)... APP 4
Defendants' Brief to the Superior Court, Appellate
Division (October 13, 2020)...................................

APP 5

Singh Declaration (Filed in Superior Court, Appellate
Division October 13,2020)................... .......................

APP 6

Second Singh Declaration (Filed in Superior Court,
Appellate Division October 13, 2020)......................

APP 7

Third Singh Declaration (Filed in Superior Court,
Appellate Division October 13, 2020)...................

APP 8

Minute Order RICHARDSON et al v. TRUMP et al,
in the District of Columbia Federal District Court
(October 27,2020)............ ......... .................. .:.....

APP 9

iv
TABLE OF AUTHORITIES
Cases

Reynolds v. Sims, 377 U.S 533 (1964) ......................
United States v. Classic, 313 U.S. 299, 313 U.S. 315........
Arizona State Legislature v. Arizona. Independent
Redistricting Commission, 576 U.S. 787 (2015)..........
Democratic National Committee et al. v. Wisconsin
State Legislature, et al. On Application to Vacate Stay,
592 U. S.__ (2020) ........... ........................... ..........
Smiley v. Holm, 285 U. S. 355, 369.........................

Page
15
15
10,20

11,20
10

CONSTITUTIONAL and OTHER AUTHORITIES
Article 1, Section 4 of the Unites States Constitution:.
Article IV, Legislative Section 1(1) of the New Jersey
Constitution..................... .............................. .............
Article IV, Legislative Section 7(6) of the New Jersey
Constitution................................... ............................
Article III of the New Jersey Constitution..................
Article IV, Legislative Section 1 (4) of the New Jersey
Constitution.................................................................
Article II (4) of the New Jersey Constitution.............

5 U.S. Code § 552 (a)(1)................ ....................
5 U.S. Code § 552 (a)(3)(A)................ ............. .
5 U.S. Code § 552 (a)(4)(B)...................................
Executive Order 144 of Governor Phil Murphy.........

5
5
5
5
8

17
2,18
18
16
3,5,6,7,
8,11,12,
15,17,18,21

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Hirsh Singh respectfully petitions for a writ of
certiorari to be granted to review the judgment of the New Jersey
Supreme Court in this time-sensitive case related to the election on
November 3, 2020, and requests that this be treated as an emergency.
There are no material facts in dispute. Given that the matter is an
emergency, and all arguments and facts are in front of the court,
Petitioner would also be agreeable to a final ruling on this matter
without further filings.
OPINIONS BELOW
The brief order of the New Jersey Supreme Court denying
Petitioner’s Motion to reverse the judgment of the Superior Court of
New Jersey, Appellate Division against Petitioner is available at Pet.
App. 1. The opinion and order of the Superior Court of New Jersey,
Appellate Division ruling against Petitioner and in favor of the
position that the Governor's emergency powers permitted him to take
Over the functions of the legislature's functions to make electionrelated laws is available at Pet. App. 2.
HJRISDICTIQN
The New Jersey Supreme Court entered its judgment on
October 27, 2020, and Petitioner has filed this petition in a timely
manner. The jurisdiction of this Court is based on 28 U.S.C. § 1257(a).

2
CONSTITUTIONAL AND FEDERAL PROVISIONS INVOLVED

Article 1, Section 4 of the United States Constitution ["Elections
Clause") provides, "The Times, Places and Manner of holding Elections
for Senators and Representatives, shall be prescribed in each State by
the Legislature thereof; but the Congress may at any time by Law
make or alter such Regulations, except as to the Places of choosing
Senators."
Section 1 of the Fourteenth Amendment of the United States
Constitution provides, "[N]or shall any State deprive any person of
life, liberty, or property, without due process of law...”
5 U.S. Code § 552 ("Freedom of Information Act" or "FOIA")
provides in section (a)(3)(A), "[E]ach agency, upon request for
records... shall make the records promptly available to any person." 5
U.S. Code § 552 (a)(1) requires each agency to make available
information to the public related to the procedure for obtaining
information and records.

3

STATEMENT OF THE CASE
This lawsuit is brought by Republican Primary Candidate for
the U.S. Senate seat in New Jersey, Hirsh Singh who has standing both
as a voter and as a candidate as he ran in the primary election held on
July 7, 2020 for the aforementioned seat. The candidate was injured
by the fact that while he was in the midst of campaigning as a
candidate participating in a lawfully created election, the Governor of
New Jersey created a parallel illegitimate election, the manner of
voting for which was created by Executive Order 144 ("EO 144”] in
violation of Article 1, Section 4 of the United States Constitution.
App.4, page 9.
The result of the legitimate election for which the Petitioner
signed up, and the result of the illegitimate election were combined
together by the New Jersey Secretary of State. App.4, page 19.
Petitioner has shown lower courts that had the result of only the
legitimate election been taken into account without adding the ballots
from the unconstitutional election based on EO 144, Petitioner would
have been the winner of the primary election. App.4, page 25. This
determination was based on the numbers provided by thirteen
counties which made available the breakdown of mail-in ballots and
in-person ballots while eight counties refused to turn over such
information. In three of these counties, the result would have been
reversed in favor of Petitioner. App.4, page 25.
Additionally, Petitioner’s liberty interests related to his Due
Process rights were violated as he was deprived of the opportunity to
participate both as a candidate and as a voter in a lawfully created
primary election because of EO 144. App.4, page 7.
A separate claim seeks to forbid the state from making use of
the mail-in ballot system that is not protected by federal and state
laws and this claim is separate from the claims that seek to declare

4

the primary election unconstitutional. During the counting of votes,
Petitioner approached officials of the United States Postal Service
(USPS) seeking information about the election and discovered that
USPS was not Only unable to provide records related to those portions
of the election process for which it was involved in decision-making,
but that it had no procedures in place to provide such information.
Thus these portions of the election were in violation of the Freedom
of Information Act. App.4, page 16.

5
I.
EXECUTIVE ORDER 144 OF THE NEW JERSEY GOVERNOR,
THE PRIMARY ELECTION BASED ON IT, AND THE INCLUSION OF
NOMINEES FROM THE PRIMARY ELECTION ON THE BALLOT FOR
THE GENERAL ELECTION VIOLATE THE ELECTIONS CLAUSE OF
THE UNITED STATES CONSTITUTION
Provisions in the United States Constitution and the
(a)
related provisions in New Jersey 's Constitution
Article 1, Section 4 of the Unites States Constitution provides,
"The Times, Places and Manner of holding Elections for Senators and
Representatives, shall be prescribed in each State by the Legislature
thereof; but the Congress may at any time by Law make or alter such
Regulations, except as to the Places of choosing Senators.''
Consequently, the New Jersey Legislature has created laws related to
the times, places and manner of holding elections.
Article IV, Legislative Section 1(1) of the New Jersey
Constitution clearly states, "The legislative power shall be vested in a
Senate and General Assembly" while Article IV, Legislative Section
7(6) of the New Jersey Constitution states, "The laws of this State
shall begin in the following style: "Be it enacted by the Senate and
General Assembly of the State of New Jersey."” Additionally, Article
III of the New Jersey Constitution provides, "No person or persons
belonging to or constituting one branch shall exercise any of the
powers properly belonging to either of the others, except as
expressly provided in this Constitution,"
Thus the New Jersey’s lawmaking powers related to the
elections are completely vested in the legislative branch of the
government and there is nothing in the New Jersey Constitution

6
which expressly provides for the Governor to take over the powers
of the legislature with regards to the framing of election laws.
Executive Order 144, which modified several election
(b)
related laws related to the time and manner of holding elections,
and which transferred the powers of the NJ Legislature to the
Secretary of State, and which replaced laws passed by the
legislature with guidelines created by the Centers for Disease
Control and Prevention and other federal and state government
entities, is in violation of the Elections Clause of the United States
Constitution
On May 15, 2020, Governor Phil Murphy signed Executive
Order 144 ("EO 144”], By issuing this order, the Governor interfered
with and Changed several laws related to the time and manner of
holding elections including N.J.S.A. 19:8-4, N.J.S.A. 19:63-9, N.J.S.A.
19:63-22, N.J.S.A. 19:63-18, N.J.S.A. 19:6-2, N.J.S.A. 19:8-2, N.J.S.A.
19:52-6, N.J.S.A. 19:14-9, N.J.S.A. 19:23-54, N.J.S.A. 19:29-3, N.J.S.A.
19:23-55, N.J.S.A. 19:28-1, N.J.S.A. 19:52-6, N.J.S.A. 19:53B-21, N.J.S.A.
19:53C-21, and N.J.S.A. 52:14B-1.
EO 144 (1] provides, "All elections that take place on July 7,
2020, shall be conducted primarily via vote-by-mail ballots, which
will automatically be sent to all "Active” registered Democratic and
Republican voters without the need for an application to receive a
vote-by-mail ballot." This is an instance of the Governor determining
the manner of conducting elections through the Executive Order.
EO 144 (14] provides that "the ballot-return deadline in
N.J.S.A. 19:63-22 shall be suspended" and that "[ejvery vote-by-mail
ballot that is postmarked on or before July 7, 2020, and that is
received by July 14, 2020, at 8:00 p.m. shall be considered valid and
shall be canvassed." By suspending the ballot return deadline of 48
hours after the election that is specified in N.J.S.A. 19:63-22, and

7

extending this deadline by five days, EO 144 (14) extended the time
of voting through mail-in-ballots by five days and is hence
unconstitutional.
Further, each enumerated point in EO 144 is an
unconstitutional action by the Governor that changes either the time
or the manner of holding elections, or both the time and manner of
conducting elections, by modifying or overriding laws created by the
legislative branch which are related to the time and manner of
conducting elections.
The Executive Order delegated the power of modifying N.J.S.A.
19:31-21 related to the manner of conducting elections to the
Secretary of State when it stated, "The Secretary of State may modify
the requirements of N.J.S.A.19:31-21 concerning the use of poll books
and the information contained therein as necessary to address the
procedure by which the July 7, 2020 Primary Election will be
conducted under this Order, and the needs resulting therefrom.”
The Executive Order also effectively and illegitimately
replaced the powers of the legislature to determine the time and
manner of conducting elections by guidelines of bureaucratic
departments such as the Centers for Disease Control and Prevention,
the State Department of Health, and various county departments of
health, when it stated, "Vote-by-mail ballots shall be processed and
canvassed in accordance with guidelines provided by the Centers for
Disease Control and Prevention, the State Department of Health, and
the respective county departments of health."
New Jersey's Constitution provides the proper
manner for the Governor to act whenever public interest shall
require such action but the Governor chose to bypass such a
method eventually leading to the violation ofArticle 1 Section 4 of
the United States Constitution
(c)

8

Article IV, Legislative Section 1 (4) of the New Jersey
Constitution deals with the manner in which the Governor could
have acted during times of emergency without violating the
Constitution when it provides: "Special sessions of the Legislature
shall be called by the Governor upon petition of a majority of all the
members of each house, and may be called by the Governor
whenever in his opinion the public interest shall require." If the
Governor believed that the public interest required the action of the
legislature, nothing stopped him from calling for a special session of
the legislature and working with the legislative branch to change the
law in accordance with the proper procedure without hijacking the
powers of the legislature.
New Jersey's courts erred in claiming that the
(d)
emergency powers granted the power to the Governor to take over
the Junctions of the legislature and change election laws; in
reality, the only emergency powers granted to the Governor are
those which are already part of the Executive branch; further, even
if they granted him such powers, it would be unconstitutional
In ruling against the Petitioner, the New Jersey Superior Court,
Appellate Division erroneously held that "the Governor was
authorized to exercise those delegated emergency powers and revise
customary in-person voting processes in order to protect the public
health and safety" and Cited N.J.S.A. 26:13-1 to 31 (Emergency Health
Powers Act) and N.J.S.A. App. 9-30 to 63 (Civilian Defense and
Disaster Control Act) in its support. The New Jersey Supreme Court
preserved this ruling. App.2, page 4.
Governor Phil Murphy too, in his Executive Orders 120 and
144 has listed N.J.S.A. 26:13-1 et seq., N.J.S.A. App. A:9-33 et seq.,
N.J.S.A. 38A:3-6.1, and N.J.S.A. 38A:2-4, and claimed that they grant
him emergency powers that allowed him to pass the two Executive
Orders.

9
In reality, nothing in N.J.S.A. 26:13-1 et seq., N.J.S.A. App. A:933 et seq., N.J.S.A. 38A:3-6.1, or N.J.S.A. 38A:2-4 can be construed as
either transferring the power of the legislature to the Governor in
times of emergencies or granting the power to the Governor to
unilaterally frame election laws for the state of New Jersey.
N.J.S.A. 26:13-1 deals with the powers Of the Commissioner of
Health and Senior Services during a public health emergency such as
directing health care workers and registered support services
personnel, safe disposition of human remains, making a
determination to investigate any deaths, and perform similar related
functions. The Governor’s includes declaring the health emergency,
describing the nature of emergency and the geographic area subject
to the declaration, impacting reimbursement claims, and exercising
the powers of the Commissioner of Health and Senior Services if a
disaster has been declared.
N.J.S.A. App. A:9-33 describes the objective of the civilian
defense act and disaster control act using the words, "The purpose of
this act is to provide for the health, safety and welfare of the people
of the State of New Jersey and to aid in the prevention of damage to
and the destruction of property during any emergency." Elections
have nothing to do with property damage or destruction, and
nothing in the portions that follow this statement of purpose grant to
the Governor the rights of changing election laws or taking over the
functions of the legislature. An example of powers under N.J.S.A. App.
A:9-33 would be for the Governor to determine the control and
direction of the flow of vehicular traffic on any State or Interstate
highway, and its access roads, including the right to detour, reroute
or divert any or all traffic, and to prevent ingress or egress from any
area to which the declaration of emergency applies, but there is
nothing to let the Governor change the law to determine the time and
manner in which elections prescribed by the United States
Constitution are conducted.

10
N.J.S.A, 38A:3-6.1 grants the power to "order to active duty,
with or without pay, in State service, such members of the New
Jersey National Guard, that in his judgment are necessary to provide
aid to localities in circumstances which threaten or are a danger to
the public health, safety or welfare" and to "authorize the
employment of any supporting vehicles, equipment, communications
or supplies as may be necessary."
N.J.S.A. 38A:2-4 is the power to order militia to active duty.
None of the other statutes cited by the New Jersey court grant
the power to the Governor. In fact, any emergency power designated
to the Governor is a power that is already with the Executive branch.
Supreme Court Precedent (Arizona State Legislature
v. Arizona. Independent Redistricting Commission) supports case
for declaring the Governor's actions unconstitutional and ruling in
favor of the Petitioner
(e)

In Arizona State Legislature v. Arizona. Independent Redistricting
Commission, 576 US _ (2015] the Supreme Court citing Smiley v. Holm
stated:
Lawmaking, we further noted, ordinarily "must be in
accordance with the method which the State has prescribed for
legislative enactments.”
The Supreme Court further added:
Nothing in the Elections Clause, we said, "attempt[ed] to endow
the legislature of the State with power to enact laws in any
manner other than that in which the constitution of the State
ha[d] provided that laws shall be enacted." Id., at 368.

11
The State of New jersey has not prescribed lawmaking to be in the
form of arbitrary decrees issued by the Governor based on his own
imagination. Nor do New Jersey’s emergency powers allow him to
usurp the powers of the legislature and change the election laws. The
provisions of the Constitution of New Jersey listed earlier [Article III,
Article IV 1(1}, Article IV 7(6)] clearly draw the boundaries between
various branches of the government and designate the law making
powers to the Legislative branch.

Recent Supreme Court Ruling in Democratic National
(0
Committee et al. v. Wisconsin State Legislature, et al. supports
Petitioner's position to rule Executive Order 144 unconstitutional
In Democratic National Committee et al v. Wisconsin State Legislature,
et al. On Application to Vacate Stay, 592 U. S.
(2020), Gorsuch,}.,
concurring, noted, “The Constitution provides that state legislatures
—not federal judges, not state judges, not state governors, not other
state officials —bear primary responsibility for setting election rules.
Art. I, §4, cl. 1. And the Constitution provides a second layer of
protection too. If state rules need revision, Congress is free to alter
them. Ibid, (emphasis added)
New Jersey Appellate Court erred in focusing on the
(g)
time of the election which was never challenged, and in claiming
that Petitioner could have filed the lawsuit prior to injury having
occurred
In its ruling, the New Jersey Appellate Court made multiple
errors which were not fixed by the New Jersey Supreme Court. First,
the appellate court stated that "Plaintiff took advantage of the
extended opportunity to campaign and attract voters for the primary

12
election and did not attempt to halt the process.” See App. 2, page 41.
This case was not about the extended time but the manner of election.
The extended time was based on a legitimate law created by the
legislature and had never been challenged by the Petitioner. However,
the New Jersey Appellate court, right from the time it took over the
case, has erroneously described this case as a challenge against
Executive Order 120 which changed the time of the election in
addition to a challenge against Executive Order 144. See App. 3, page
1. Executive Order 120 became moot as the same change in the date
of the election was codified by the legislature.
The above position of the court is flawed for a very important
reason - there were two elections in progress, and the Petitioner was
doing what he could in good faith to ensure that he won the legitimate
election. In effect, the court makes the unreasonable argument that
the Petitioner should have disrupted his campaigning for the
legitimate election and focused on challenging the illegitimate
election because any challenge to the illegal election would not have
been possible without redirecting resources from the campaigning
activities of the legal election. This is clearly an unreasonable
expectation on the part of the court that Petitioner take on injury to
correct the Governor’s unconstitutional actions.
The court also stated, "Plaintiff knew weeks before the July
primary what Executive Order 144 said, and that it was allowing
citizens to vote by mail without an advance request for a ballot. There
was no need to wait for the election to occur in order to bring a
challenge to the procedures.” See App. 2, page 41. This position by the
court is flawed not only for the reason stated above but also because
no injury to the Petitioner had occurred until after the county officials
and the Secretary of State’s Office started including the ballots from
the illegitimate election based on EO 144 in the final tallies of
candidates. The court ignored Petitioner’s argument which stated:

13
“Injury began only after luly 7 due to mixing of results from
the legal and illegal elections, and fraudulent activities even
by the State's own standards occurred, and Petitioner
objected to the Secretary of State's Office as early as Tulv
17: Petitioner first objected to the illegitimate activities
related to the election by sending emails to the Secretary of
State's Office on July 17 but did not receive any response."
See App. 4, page 23. (emphasis original)
The date of Petitioner’s first complaint, July 17, 2020, was
Clearly weeks prior to the election results being declared and certified
on August 9th, 2020, and the court's claim that Petitioner’s complaint
was due to his purported "loss" in the election is clearly flawed. See
App. 4, page 17. The complaint in the court was the culmination of
good faith attempts to get the county officials and Secretary of State’s
Office to fix their problems after Petitioner started facing injury. The
court also ignored Petitioner's information that the request for first
recounts had been filed as early as July 24, 2020 when the motion
stated:
Petitioner filed for recounts as early as July 24. It was the
Attorney General's office that interfered in several counties
and blocked this process. It is due to their efforts that the
decision on recounts have not been arrived at yet, and Sussex
County only gave their decision on August 20. Even after filing
this complaint, the Attorney General’s office has shown no
sense of urgency and has attempted to slow down the process
despite claiming that they believe this matter is time sensitive.
See App. 4, page 17.
Petitioner also pointed out to the New Jersey Superior Court,
Appellate Division that the traditional estoppal principles favored the
Petitioner. See App. 4, page 21. However, the court did not address
this matter.

14
(h)
New Jersey judiciary has a history of voiding an
election after the election date and could have done so in this case
The New Jersey judiciary has a history of voiding an
election after the election date. See In re Contest of November 8,
2011 General Election of Office ofN.J. General Assembly, Fourth
Legislative Dist, 427 N.J. Super. 4l0, 48 A.3d 1164 (N.J. Super.
2012). In that case, the New Jersey court held:
It ensures that the Vacancy Paragraph is fully
implemented by legislation. Most importantly, it
ensures that in the event of "[a]ny vacancy in the
Legislature occasioned otherwise than by expiration of
term," an interim successor is appointed to represent a
legislative district which might otherwise go without
representation and a voice in the State Legislature for a
year or more. Again, to interpret it otherwise "would
frustrate the clear Legislative design to exclude only
those cases where the vacancy, by reason of the
expiration of the term of office/ would be filled by the
electorate in the normal course of events." Application
of Moffat, supra, 142 N.J.Super. at 229-30, 361 A.2d
74.26
Accordingly, this court accepts this supported and
salutary interpretation of N.J.S.A. 19:27-11.2, rather
than the Attorney General's position that the
Fourth Legislative District’s seat in the General
Assembly must remain vacant until the next
general election.
In this case too, voiding the primary election and the
general election for the Senate seat would not result in New

15
Jersey going unrepresented as the Governor could appoint
a Senator for the interim period.

II.
EXECUTIVE ORDER 144 OF THE NEW JERSEY GOVERNOR,
THE PRIMARY ELECTION BASED ON IT, AND THE INCLUSION OF
NOMINEES FROM THE PRIMARY ELECTION ON THE BALLOT FOR
the general election violate the due process clause of
THE UNITED STATES CONSTITUTION
Executive Order 144, by upending the power of the New Jersey
Legislature and replacing the election for the offices of the U.S.
Senator and the members of the House of Representatives by an
election created by the Executive Order, deprived the petitioner from
participating as a candidate as well as from voting as a voter in a
lawfully created election created by the New Jersey Legislature. The
Executive Order, the election it created, and the results of the election
violate both the Substantive Due Process rights and the Procedural
Due Process rights of the Petitioner and are all unconstitutional. Any
inclusion of the results of the primary election on the ballots for the
general election to be held on November 3, 2020 would also be
unconstitutional. In Reynolds v. Sims, 377 U.S. 533 (1964), the U.S.
Supreme Court quoted from United States v. Classic, 313 U.S. 299, 313
U.S. 315, "Obviously included within the right to choose, secured by
the Constitution, is the right of qualified voters within a state to cast
their ballots and have them counted." In the current context, the act of
casting ballots refers to an election created by the legislature in
accordance with the Constitution and that right has been taken away
as the primary election of July 7, 2020 was not constitutional.

16
III.
THE MAIL-IN BALLOT SYSTEM VIOLATES THE
FREEDOM OF INFORMATION ACT AS IT APPLIES TO THE
POSTAL SERVICE WHICH IS A COMPONENT IN WHAT
SHOULD BE A TRANSPARENT GOVERNMENT PROCESS, THE
NEW JERSEY COURT ERRED BY CLAIMING LACK OF
JURISDICTION AND IN IGNORING THE STATE’S ROLE IN
USING THE USPS

According to 5 U S. Code § 552 (a)(4)(B):

On complaint, the district court of the United States in the
district in which the complainant resides, of has his principal
place of business, or in which the agency records are situated,
or in the District of Columbia, has jurisdiction to enjoin the
agency from withholding agency records and to order the
production of any agency records improperly withheld
from the complainant, (emphasis added)

Petitioner never requested the court to enjoin USPS from withholding
agency records or to order the production of any agency records.
What Petitioner pointed out to the court was that EO 144 made the
Respondents in this case utilize USPS which was in violation of FOIA
by the mere act of being a participant in New Jersey's new mail-in
ballot system which did not have the legal protection of the
previously existing absentee ballot system. 5 U.S. Code § 552 (a)(4)(B)
does not stop a state court from declaring that the State actors were
in furtherance of an action that violated FOIA and to ask the State

17
actors from stopping such actions. Petitioner’s complaint narrowly
sought only such relief and did not attempt to get the state court to
give directions to USPS.
Specifically, Petitioner sought that the court "Declare the entire
system of mail-in ballots except as provided by previously defined
procedures for the absentee ballots to be issued to the members of
the Armed Forces to be in violation of the Freedom of Information
Act” and that the court "Issue an injunction forbidding the use of the
mail-in ballot system for the general election of November 3, 2020."
App.4, page 29.
The reliefs sought have very strong basis in law as well as facts. While
Article II (4) of the New Jersey Constitution grants the legislature the
power to provide for absentee voting by members of the armed
forces, and while this process is Well defined and based on members
of the armed forces requesting absentee ballots, the same is not true
for the general mail-in-ballot system created through Executive Order
144. These lack proper definition of the entire process from end to
end for the mail-in-ballot system, with many unknowns especially
when the chain of custody of the ballots passes to the United States
Postal System. This means that a large part of the election process is
out of control of the state of New Jersey and it is impossible to obtain
proper information about the election process. As the United States
Postal Service is a federal entity that derives its power from the
United States Constitution, the Freedom of Information Act is
applicable to it, and New Jersey’s use of USPS furthers the violation of
FOIA. App.4, page 16.
Unlike in the case of the mail-in ballots which have no federal
laws and procedures supporting them, the absentee ballot system is

18
governed by federal laws that ensure the privacy of voters and also
mandate for the ability to track the ballots. The Uniformed and
Overseas Citizens Absentee Voting Act (UOCAVA) was passed in 1986,
and expanded significantly in 2009, when Congress passed the
Military and Overseas Voter Empowerment (MOVE] Act. The Help
America Vote Act of 2002 created the Election Assistance Commission
which certifies voting systems and audits election processes. The
MOVE Act has a requirement to "allow UOCAVA voters to track the
receipt of their absentee ballots through a free access system.” None
of these federal laws apply to the mail-in ballot system created by the
Executive Order 144 or the mail-in ballot system that will be used in
the general election of November 3, 2020. App.4, page 26.
Petitioner provided information to the court related to visiting
and contacting multiple post offices in an attempt to obtain
information related to the election process in which the post office
played a decision-making role as its personnel informed the county
officials which ballots that were postmarked after the deadline that
they should count and which ballots they should discard. Petitioner’s
also showed the court that the post offices were not only unable to
provide the information sought from them about the election process
but they also had no procedures in place for the public to seek such
information. App.4, page 9.
The lack of ability to obtain information and the lack of proper
government procedures to obtain such information makes the mail-in
voting system an opaque process and hence it is in violation of the
Freedom of Information Act. The lack of information on proper
procedures to obtain information on how to request records from the
Post Office means that the mail-in ballot system violates 5 U.S. Code §
552 (a)(1). The lack of production of records by USPS is a violation of
5 U.S. Code § 552 (a)(3)(A) as all communication with the

19
postmasters as well as the state representative occurred on July 22,
2020 or prior to that date, and there has been no response from them
so far.

Both USPS and the judiciary are now involved in making rules for
the election
On October 28, 2020, in Theresa Richardson, et al. v. Donald J.
Trump et al., Civil Case No . 20 - cV - 02262 (EGS J, the United States
District Court for the District of Columbia gave detailed orders to
USPS to implement election related actions. For example, one part of
the order read:
It is FURTHER ORDERED that by no later than 9:00 AM on
October 29, 2020, Defendants shall issue a one-page notice to, or
deliver a Stand-Up Talk to, all USPS personnel who may have job
responsibilities related in any way to late and extra trips, stating
that: "Late and extra trips will be approved to the maximum
extent necessary to increase on-time mail deliveries, particularly
for Election Mail. Any prior communication that is inconsistent
with this should be disregarded. To be clear, late and extra trips
will be approved to the same or greater degree than they were
performed prior to July 2020 when doing so would increase ontime mail deliveries."
App. 9, page 1.
This case is an example of what the election process should not
look like as it not only demonstrates that the USPS was interfering in
the election process, but it also shows that the judiciary is now
involved in making up rules for the election.
A timely and simple ruling forbidding the use of the new mailin ballot system until proper procedures and laws are put in place

20

would put an end to the confusion and ensure an orderly election
process. A swift ruling before election day would allow voters to
decide to vote in person.
REASONS TO GRANT THE PETITIONER
The New Jersey Court Ruling flies in the face of Supreme Court
precedents
The New Jersey court ruling flies in the face of the rulings in
Arizona State Legislature v. Arizona. Independent Redistricting
Commission, 576 US 787 (2015), and Democratic National Committee
et al. v. Wisconsin State Legislature, et al. On Application to Vacate
Stay, 592 U. S.
(2020). While the former requires lawmaking to be
in accordance with the method which the State has prescribed for
legislative enactments, the latter has clearly opposed the Governor
from taking over the role of the legislature.
If left unchecked, the United States could unravel as a
Constitutional Republic and become a dictatorship
The United States of America is a Constitutional Republic and fatwas
and unilateral decrees have no place in our system. No matter how
painful it might be to the employees of the Secretary of State’s Office
or the employees of the county boards of elections, this action by the
Governor of New Jersey will have very serious ramifications and it
must be nipped in the bud. Elections are one of the key components
that form the foundation of our Constitutional Republic, and the
minor inconveniences caused to the Secretary of State, the Attorney
General, and the Governor, must be ignored. If such unilateral actions

21
such as the Governor of New Jersey delegating unlimited powers to
himself and taking over the other branches of the government are left
unchecked, it will herald the beginning of the end Of our
Constitutional Republic.
CONCLUSION
The emergency petition for a writ of certiorari should be granted. As
the matter is an emergency, and all arguments and facts have been
placed in front of the court, the court could also issue a final ruling on
the reliefs sought in the New Jersey court which sought to declare
Executive Order 144 and the election based on it unconstitutional,
void New Jersey’s primary election for U.S. Senator, and on the
separate matter of the lack of transparency in the election process,
forbid the use of mail-in ballots not adequately protected by federal
and state laws (relief sought - App. 4, page 28).
Respectfully submitted,
Hirsh Singh,
Filing as Pro Se
P.0. Box 407 Linwood, NJ 08221
9 Wexford Lane Linwood, NJ 08221
(609)335-5289
info@hirshsingh.com

